GENERAL SERVICES ADMINISTRATION
OFFICE OF INSPECTOR GENERAL


         AUDIT OF PBS’S MAJOR REPAIR AND
              ALTERATIONS PROGRAM
         REPORT NUMBER A040176/P/R/R05010

                 September 26, 2005
                   AUDIT OF PBS’S MAJOR REPAIR AND
                        ALTERATIONS PROGRAM
                  REPORT NUMBER A040176/P/R/R05010


                          TABLE OF CONTENTS
                                                            PAGE

EXECUTIVE SUMMARY                                             i

INTRODUCTION                                                  1

     Background                                               1

     Objectives, Scope, and Methodology                       2

RESULTS OF AUDIT                                              4

     The Reinvestment Requirements Are Large                  4

     PBS Has Methodology to Identify and Track Its Repair
     and Alteration Needs                                     5

     The Methodology Improvements Needed                      5

           PCS                                                6

           Web-BER                                            6

           Correlation Between PCS and Web-BER Studies        7

           IRIS                                               7

     The National Office’s Forecast Needs Prioritization      7

     Industry Trends                                         10

CONCLUSION                                                   11

RECOMMENDATIONS                                              12

MANAGEMENT CONTROLS                                          13
                 AUDIT OF PBS’S MAJOR REPAIR AND
                      ALTERATIONS PROGRAM
                REPORT NUMBER A040176/P/R/R05010


                   TABLE OF CONTENTS (continued)


MANAGEMENT COMMENTS                                    13

APPENDICES

    PBS Repair and Alterations Planning Methodology   A–1

    Facility Condition Index Comparison               B–1

    Management’s Response                             C–1

    Report Distribution                               D–1
                    AUDIT OF PBS’S MAJOR REPAIR AND
                         ALTERATIONS PROGRAM
                    REPORT NUMBER A040176/P/R/R05010

EXECUTIVE SUMMARY

Purpose
The objective of this audit was to determine if GSA has an effective strategy to
repair and modernize Federally owned buildings. We assessed whether GSA
identifies total repair and alteration requirements in their owned buildings and
estimates their cost; evaluates the economic and operational implications of the
requirements in each building; and, sets forth a strategy to repair and modernize
these buildings.

Background
The General Services Administration (GSA) Public Buildings Service’s (PBS)
manages one of the largest building inventories in the nation. GSA owns over
1,200 active buildings with over 175 million rentable square feet. However, GSA
has been struggling to keep up with the growing repair and modernization needs
of its building inventory. The average age of the buildings in GSA’s inventory is
43 years old and every year PBS performs a wide variety of projects to repair,
maintain, and modernize GSA’s building inventory. However, between fiscal
years (FY) 1999 and 2004, GSA’s repair and alteration work that needed to be
completed on Federal buildings increased from a total of $4 billion to over $6
billion.

In a March 2000 report, the U.S. Government Accountability Office (GAO)
asserted that GSA did not have a comprehensive plan that (1) identified its total
repair and alteration requirements and funding needs, (2) established the
benefits and priorities of all competing projects, and (3) proposed a strategy to
repair its most deteriorated buildings. However, the report did credit GSA with
several initiatives that would help it improve its management including
standardizing and improving its asset business plans, the development of a 5-
year repair and alteration plan for all prospectus level work, and improving
information systems supporting the repair and alterations program.

Results in Brief
PBS is making progress in developing a comprehensive plan to address its long-
term capital reinvestment requirements, but more needs to be done. PBS has
developed a methodology using multiple information systems to identify building
deficiencies and then to inventory and schedule the repair and alterations
projects for its buildings. However, the methodology is not being implemented on
a consistent basis and PBS has not fully developed its strategy to repair or
modernize its buildings nor does it establish the relative benefits and priorities of
all competing projects.




                                          i
Recommendations
To remedy the situation, PBS needs to take additional steps toward ensuring the
effective planning for its building repair and modernization requirements. These
steps include ensuring the data for its building reinvestment requirements is
obtained and maintained, developing and implementing a new strategy to repair
and modernize its buildings, and strengthening the prioritization methodology for
the nationwide reinvestment forecast.

Management Comments
In his September 16, 2005 response to the draft audit report, the Acting
Commissioner of the Public Buildings Service agreed with the contents,
conclusions, and results of the report and provided specific comments.




                                        ii
                        AUDIT OF PBS’S MAJOR REPAIR AND
                             ALTERATIONS PROGRAM
                       REPORT NUMBER A040176/P/R/R05010

                                      INTRODUCTION

Background

The General Services Administration (GSA) Public Buildings Service’s (PBS)
mission is to provide a superior workplace for the federal worker and superior
value to the American taxpayer. To carry out this mission, PBS manages one of
the largest building inventories in the nation. GSA owns over 1,200 active
buildings with over 175 million rentable square feet. The average age of the
buildings in GSA’s inventory is 43 years old and every year PBS performs a wide
variety of projects to repair, maintain, and modernize GSA’s building inventory
ranging from small projects such as re-painting or re-carpeting office space to
replacing building systems such as heating and air-conditioning systems to total
building renovations. To date, a quarter of the buildings have undergone an
extensive modernization.

However, GSA has been struggling to keep up with the growing repair and
modernization needs of its building inventory. At the end of fiscal year (FY)
1999, GSA’s repair and alteration work that needed to be completed on Federal
buildings was estimated to total $4 billion. At the end of FY 2004, GSA’s annual
report estimated that the repair and alteration work had grown to over $6 billion.
One major factor in this growth is that available funding for these projects is
limited. The projects are funded yearly through the Federal Buildings Fund
(FBF), a revolving fund financed by rents received from other agencies.
However, the FBF has not generated sufficient income over the years to keep up
with all of the needs of GSA’s building.

Project funding is provided in lump sum for basic repair and alterations and in
specific amounts for certain projects that exceed the prospectus threshold
established by Congress (currently set at $2.36 million). The FY 2005 budget
provided $333 million for basic repairs and alterations and $554 million for
prospectus level projects. To obtain funding for a prospectus project, PBS is
required to submit a prospectus1 to Congress for approval. Prospectuses are
developed by PBS Regional management based on the PBS National Office’s
Capital Investment and Leasing Program (CILP) Call that outlines all the
requirements that must be met for a prospectus-level project to be considered for
inclusion in the budget for that FY’s major repair and alterations program,
including all the required financial and technical documentation. The PBS
National Office ranks the proposed prospectus projects using the Expert Choice

1
  The prospectus includes the description and location of the project, a list of the impacted
tenants, a justification statement, an estimate of the maximum cost to the United States, and a
listing of any prior authority and funding.


                                                1
software program that uses economic and asset infrastructure criteria to analyze
and prioritize the list of proposed projects for the budget submission.

In the past, the U.S. Government Accountability Office (GAO) has reported on
GSA’s difficulty in overcoming long-standing obstacles in its repair and
alterations program such as inadequate program data, lack of a multi-year repair
and alteration plan, and limited funding. In a March 2000 report2, GAO asserted
that GSA did not have a comprehensive plan that (1) identified its total repair and
alteration requirements and funding needs, (2) established the benefits and
priorities of all competing projects, and (3) proposed a strategy to repair its most
deteriorated buildings. However, the report did credit GSA with several initiatives
that would help it improve its management including standardizing and improving
its asset business plans, the development of a 5-year repair and alteration plan
for all prospectus level work, and improving information systems supporting the
repair and alterations program.

The importance of GSA’s management of its real property assets has grown as
the visibility of asset management has increased throughout the government. In
January 2003, GAO designated federal real property as a new high-risk area due
to the persistence of problems including excess and underutilized property,
heavily deteriorating facilities, lack of reliable government-wide real property data
for strategic asset management, and reliance on costly leasing instead of
ownership to meet new space needs. Likewise, asset management is now a
component of the President’s Management Agenda used by the Office of
Management and Budget to evaluate agency performance.

Objective, Scope, and Methodology

The objective of this audit was to determine if GSA has an effective strategy to
repair and modernize Federally owned buildings. We assessed whether GSA:

    •   Identifies total repair and alteration requirements in their owned buildings
        and estimates their cost;
    •   Evaluates the economic and operational implications of the requirements
        in each building; and,
    •   Sets forth a strategy to repair and modernize these buildings.

To gain an understanding of the major repair and alterations program and the
processes used by PBS, we reviewed guidelines, policies, procedures, prior
audits, and studies related to the program; held discussions with Regional and
National Office officials; and assessed funding and general program data.




2
 Federal Buildings: Billions Are Needed for Repairs and Alterations (GAO/GGD-00-98, March
30, 2000)


                                             2
To accomplish our objectives, we performed the following tasks:

   •   Obtained and analyzed a snapshot of repair and alterations data pulled
       from IRIS as of September 30, 2004
   •   Assessed the role of the Asset Business Plan (ABP), Physical Condition
       Survey (PCS), Web-based Building Evaluation Report (Web-BER),
       Inventory Reporting Information System (IRIS), and Project Information
       Portal (PIP) systems in PBS’ repair and alterations business process
   •   Defined the National and Regional repair and alteration strategies
       currently in place
   •   Conducted interviews with personnel from private sector companies about
       best practices, software and technology tools, and current trends in asset
       management

For detailed review and analysis, we selected major repair and alterations
projects on a judgment basis from those submitted by the Regions for the
FY2004, FY2005, and FY2006 CILP. We interviewed the appropriate Regional
project-related staff to discuss the identification and development of the project
and associated costs, the reasoning behind any delays in funding, and the
financial and customer impact of the delays. Additionally, we reviewed, on a
judgment basis, the Facility Condition Index for a sample of buildings over
100,000 square feet.

Our audit work was conducted in the National Office and the National Capital,
Great Lakes, and Pacific Rim regions during the period May 2004 through March
2005 in accordance with generally accepted government auditing standards.




                                        3
RESULTS OF AUDIT

The Public Buildings Service (PBS) is making progress in developing a
comprehensive plan to address its long-term capital reinvestment requirements,
but more needs to be done. PBS has developed a methodology using multiple
information systems to identify building deficiencies and then to inventory and
schedule the repair and alterations projects for its buildings. The information
developed through this methodology forms the basis of a nationwide forecast for
addressing building reinvestment needs. However, the methodology is not being
implemented on a consistent basis, which may be an obstacle to effectively
managing its reinvestment requirements. In addition, PBS has not fully
developed its strategy to repair or modernize its buildings nor does it establish
the relative benefits and priorities of all competing projects.

To remedy the situation, PBS needs to take additional steps toward ensuring the
effective planning for its building repair and modernization requirements. These
steps include ensuring the data for its building reinvestment requirements is
obtained and maintained, developing and implementing a new strategy to repair
and modernize its buildings, and strengthening the prioritization methodology for
the nationwide reinvestment forecast.

The Reinvestment Requirements Are Large

The reinvestment requirements of the GSA building inventory have been an
issue for some time. In 1991, the General Accounting Office3 (GAO) reported on
the repair and alteration needs of GSA’s building inventory4 and in 2000, GAO
again reported on these needs citing an estimated $4 billion in estimated repair
and alteration work identified. At the beginning of FY 2005, the repair and
alteration needs had grown to over $6 billion for PBS’s inventory of prospectus-
level repair and alterations projects. As such, GSA’s budget for prospectus
repair and alterations projects, which has averaged about $600 million over the
past three years, is challenged to reduce this growing workload.

In the 2000 report, GAO cited GSA’s lack of a comprehensive plan that (1)
identifies the total repair and alteration needs and corresponding funding
requirements, (2) establishes the benefits and priorities of all competing projects,
and (3) proposes a strategy and the funding needed to repair or modernize its
most seriously deteriorated buildings, as an impediment to improving the
situation. However, GAO did note that GSA had several initiatives that, if fully
developed and implemented, could lead to better program oversight and a more
strategic approach to managing repair and alteration needs. These initiatives
included a system to consistently record and track the status of each identified
repair and alteration work item, to develop more accurate cost estimates, and to

3
 Now known as the Government Accountability Office.
4
 Federal Buildings: Actions Needed to Prevent Further Deterioration and Obsolescence
(GAO/GGD-91-57, May 13, 1991)


                                             4
establish priorities for the identified repairs and alterations as well as developing
a 5-year repair and alteration plan that includes all prospectus-level work in
priority order and the estimated funding needed to complete the work.

PBS Has Methodology to Identify and Track Its Repair and Alteration Needs

PBS has a process to assess the capital reinvestment requirements for its
building inventory that includes a methodology for identifying and tracking repair
and alteration requirements for its buildings. The methodology is based on a
multi-level assessment of reinvestment needs using Physical Condition Surveys
(PCS) to obtain a general assessment of all buildings and Web-based Building
Evaluation Reports (Web-BER) to provide a more detailed assessment of those
buildings targeted for repairs, and then using the Inventory Reporting Information
System (IRIS) to inventory and schedule the repair and alteration requirements
for the buildings. PBS has outlined this methodology in two documents: the GSA
WEB Building Evaluation Instructions that is online at the PCS web-site and the
Repairs and Alterations Program Guidance that was issued in May 2003. The
systems are discussed in more detail in Appendix A.

The PBS National Office also has a goal to develop a comprehensive 5-year
forecast for major repair and alterations projects using the project information
from the IRIS system. For the FY 2006 planning cycle that occurred in FY 2004,
the National Office required regional management to input their projects
anticipated for FY 2006 through FY 2010 into IRIS, so that the National Office
could compile those projects into a single nationwide 5-Year Capital
Reinvestment Plan5. The regions were also required to utilize the regional 5-year
plans to schedule the technical documents and studies required for submission
under the CILP by the PBS Commissioner’s December 2003 memo entitled,
“Cost Effective Delivery of the Capital Construction Program.”

The Methodology Improvements Needed

To effectively manage the repair and modernization program, PBS needs
consistent, accurate, and complete information on all repair and alteration
requirements. PBS relies on the use of the PCS, web-BER, and IRIS to develop
this information. Although these systems are part of the same process, the
repair and alteration information is maintained and updated separately because
the information is based on different assessments and the data on building
requirements or corrective actions is not shared. However, the data is not being
maintained consistently because the regions have not fully implemented the
process outlined by the PBS National Office. The inconsistent implementation
may impede PBS’s ability to manage the repair and modernization program as


5
  According to PBS management, the document functions as a forecast rather than a plan as the
objective is to ascertain the projects that are being contemplated for future funding and is not
intended to list projects in a definitive sequence.


                                               5
current and complete data for the entire building inventory is spread among the
three systems in varying degrees.

PCS

National Office requires regions to update the data in the PCS system on a 2-
year cycle; however, it is unlikely that the requirement will be met for the current
cycle, which ends in September 2005. Based on an evaluation of the date stamp
in the PCS system which indicates the last time surveys of individual buildings
were updated, two of the three regions had yet to update a significant portion of
their building surveys - from FY 2004 through the end of the second quarter of
FY 2005, one region had updated 21 percent of its building surveys and the other
had only updated six percent. In one of these regions, Regional Officials stated
that PCS surveys were not performed in FY04 and need to be scheduled for
FY05. As such, the PCS is not being updated regularly with consistent
assessments of the physical condition of the building inventory, which may limit
its usefulness as a strategic planning tool.

Web-BER

The utilization of web-BERs varies among the regions we reviewed. The web-
BER can cost in excess of $70,000 and is most cost effective when used early in
the planning process to assist in scoping the repair projects. Accordingly, one of
the three regions has incorporated web-BERs into the early planning process for
prospectus projects and performs the web-BER as part of the feasibility study for
the repair and alteration project.

Another region performed web-BERs for the majority of its buildings to help
manage its building portfolio. According to National Office guidance, the data in
the web-BER system needs to be updated for corrective completed work.
However, the data in the web-BER system does not appear to be maintained on
a regular basis. As of March 2005, only two of the region’s 113 buildings in the
web-BER system had been updated for corrective measures. On a national
level, only 11 of the 519 buildings and building sites6 web-BERs that had been
entered into the system had been updated for corrective measures. The web-
BERs’ usefulness for planning prospectus projects diminishes and their results
can become obsolete if the building condition data are not maintained.

In contrast, the third region performs web-BERs primarily to comply with the
submission requirements for prospectus projects. If these web-BERs are
performed to meet the budget submission requirements and are not utilized
during the planning stages of a project when the project requirements are being

6
 According to PBS National Office, although the web-BER system contained evaluations for 519
buildings and building sites at the time of this analysis, only about 300 web-BER evaluations had
been completed as of June 2005. The number of web-BER evaluations is less than the number
of buildings as a single BER may cover a “campus” formed by a group of buildings.


                                                6
developed, it is likely the study will add little value except as a final check to
ensure all problems with a building were already identified.

Correlation Between PCS and Web-BER Studies

To gauge building condition, a value known as the Facility Condition Index (FCI)
is developed by both the PCS and the BER. The FCI is a ratio of the value of a
property’s existing deficiencies to the entire replacement value and is measured
on a scale of 0 to 1.00. An FCI that is less than 0.10 indicates a building is in
good condition and an FCI over 0.20 indicates a building is in poor condition. We
compared the FCI values generated by the PCS to their respective FCI
generated by web-BER for 26 buildings over 100,000 square feet. As expected,
since a web-BER is more detailed than a PCS, the web-BER FCI was higher in
most cases. However, the differences between the two building assessments
ranged from a negative 0.63 to a plus 0.49 and only six were within 0.10 of each
other (see Appendix B). Thus, the correlation of the PCS and Web-BER results
are not always consistent in assessing building reinvestment requirements.

IRIS

Inaccurate data in IRIS can also impair the development of a nationwide
reinvestment forecast. A requirement of the CILP process is that the costs of
projects submitted must match exactly with the costs information in IRIS. The
National Office has been working with the regions to ensure that the requirement
is met. In June 2004, the National Office began discussions with the regions
after testing the accuracy of IRIS data and finding that there was a $243 million
difference in absolute value between what the regions submitted for major repair
and alterations projects during the budget planning cycle and what IRIS reported
on the nationwide reinvestment plan. Similarly, our review of the project costs in
IRIS for those projects submitted for FY06 CILP for Regions 5, 9, and NCR
showed that the project cost data for 11 out of the 24 buildings did not match that
in IRIS. In addition, the status of some projects in the inventory was not being
updated. For example, during the budget cycle for 2006, there were still over
$130 million of unfunded projects in the inventory for FY 2001 through FY 2004.
In discussions, Regional Officials stated that they do not use IRIS to manage
their Regional 5-year plan and may only go into IRIS once or twice a year to
enter or update the data. Overall, the lack of data management leads to data
inaccuracy and may reduce the National Office’s ability to use the data to
develop a nationwide reinvestment forecast.

The National Office’s Forecast Needs Prioritization

One of the major drawbacks of the National Office’s 5-year reinvestment forecast
is that it does not prioritize the projects being submitted by the regions. When
the regions develop their 5-year plans, they are scheduling projects based on
regional strategies and priorities. The National Office compiles the project



                                           7
information from the regional plans, but only prioritizes projects during the yearly
budget process. At that time, it only evaluates those projects proposed by the
regions for that budget year. The evaluation is a project-by-project approach
rather than a comprehensive long-term strategy for addressing GSA’s complete
repair and alteration inventory.

While a long-term prioritization of the projects has not been developed, PBS has
implemented several long-term strategies that indirectly target its repair and
alteration funding. These strategies include directing the regions to review the
current financial well being of buildings through its Portfolio Restructuring
Initiative (also known as Tiering) as well as assessing the long-term plans for
individual buildings by mandating the use of Asset Business Plans.

Under Portfolio Restructuring, PBS has undertaken a comprehensive review of
its building inventory to restructure and align its portfolio with GSA’s mission to
keep owned buildings in good repair and to provide Federal agencies with quality
space and services at a competitive cost. PBS’s strategy was to remove from
the owned inventory those assets which are financially under-performing and
which require significant repairs. To do this, the National Office began yearly
evaluations that categorize the building inventory into tiers based on financial
performance and repair and reinvestment needs. To date, this process has
resulted in a 20 percent reduction of the tiered building inventory, reducing it by
325 buildings representing almost 13 million square feet with an associated
reduction of $207 million in repairs and alterations. In addition, 704 buildings
representing 82 percent of GSA’s 175 million rentable square feet are now
classified as performing well financially and are earmarked for reinvestment
funds.

PBS has also mandated the development of Asset Business Plans for each
building. The purpose of the plans is to establish a vision for the asset, to identify
and measure the effectiveness of the strategies to achieve the vision, and to
continuously improve and update the strategies in order to maximize customer
satisfaction and minimize the costs of maintaining the asset. The plan should be
used to develop long-range asset strategy, reinvestment plans, and capital
investment priorities. PBS has linked the maintenance of data in Asset Business
Plans7 to its performance measurement program to ensure regions update the
plans every year. By promoting Asset Business Plans, PBS is assisting the
regions to assess the long-term prospects of each building to determine how
capital reinvestment funding should be spent.

Although both of these initiatives improve the management of the building
inventory, they do not identify where repair and modernization efforts and funding
should be concentrated. In order to further target reinvestment funding, PBS is in

7
  Asset Business Plans repair and modernization information is also directly linked to IRIS. If
information in IRIS is not updated timely it affects the accuracy of the plans. The IRIS data link is
not part of the performance measure.


                                                  8
the process of developing a set of criteria to categorize its buildings based upon
long-term customer needs so that the limited repair and alteration funding will be
directed to these assets that will be the core of the building inventory. Aligning
the nationwide reinvestment forecast to long-term customer needs should help
better focus reinvestment capital toward buildings that are key to the future. To
date, this strategy has not been fully defined or documented for implementation.

In addition to developing strategies to determine which buildings should be
targeted for reinvestment funds, PBS can benefit from a more structured
prioritization of its projects. For example, prioritization could help provide a more
realistic outlook for the reinvestment forecast. During the planning cycle for FY
2006 prospectus projects, the regions were instructed to include planned projects
from FY 2006 through FY 2010 in IRIS so that the information could be rolled up
to generate the 5-Year Capital Reinvestment Plan. We compiled this data from
IRIS and found that for FY 2007 through 2010, the yearly funding requirement
averaged $1.1 billion although the funding for these projects over the last three
years averaged less than $600 million. Without prioritization, the reinvestment
forecast will not be able to align projects with funding expectations for future
years.

Prioritization can also help regional management in managing their resources.
For example, the National Office requires 16 different project documents and
technical studies to be submitted for projects under consideration for funding
during the yearly budget planning cycle. The total cost of all these requirements
varies, but in some cases, the costs can exceed $600,000 and according to
regional personnel, they have limited resources to cover the costs of the project
studies. In accordance with guidance from the PBS Commissioner, the regions
are supposed to be scheduling funding for technical documents required to
submit a project for budget consideration based on the 5-year plan. By
prioritizing the projects in the reinvestment forecast, regional management may
be able to better align their limited funding for these studies as well as their
human resources with the higher priority projects rather than having to expend
resources on projects that are designated a lower priority. The prioritization may
also encourage regions to re-evaluate these projects and make alternative plans
on the need for the asset or on how repair needs can be met.

To determine a project’s long-term priority, PBS would need to establish a set of
criteria that would enable PBS to assess the importance and timing of the
projects. These criteria could resemble criteria that is used in other aspects of
the repair and alterations program such as customer urgency, physical urgency
based on building conditions, project timing as well as historical and community
considerations.




                                         9
Industry Trends

According to consultants, managing and optimizing organizational resources
requires access to information when and where it is needed and that in the
future, real time information on all assets will be available along with the ability to
drill down to the details. In light of this, the industry trend in both the private and
government sector is to use software applications to not only record building
condition, but to also assist in planning, prioritizing, and budgeting for repair and
modernization projects. The software applications have many features and
capabilities that could aid in managing the repair and modernization program.

Similar to GSA’s current process, the software applications use on-site
inspections or assessments to capture general information about the building as
well as data on building condition and requirements. Some systems also allow
the user to enter other unique data such as a building’s criticality to an
organization’s mission. Then using this information, the software applications are
able to plan and prioritize projects to meet current building needs based on a
variety of criteria such as building condition, return on investment, or mission
criticality. The software applications can also schedule future needs using
system life cycle planning to estimate the future replacement schedule for
building systems and components. Additionally, some systems can provide
information on the effectiveness of operation and maintenance programs by
comparing work performed in a building to industry norms for the specific building
systems. Given the trend to contract for building operations, collection and
maintenance of building information is needed to ensure proper oversight of
contractors as well as ensure data for planning is available.

The software applications can also assist in budget decisions by assessing
funding needs and evaluating the effects of different levels of funding. The
applications do this by setting performance goals using specific criteria such as
facility condition or return on investment and evaluating funding consequences.
In some cases, the applications can also evaluate the costs of delaying the
needed repairs, replacements, and maintenance of building systems. In addition,
several systems can interface with work-order software applications to initiate the
repairs in the field.

The web-BER system that is used by PBS has the potential to perform many of
the capabilities found in the industry applications. The web-BER provides
system life cycle planning, can group individual work items into a large project,
can be used to prioritize work items based on their criticality, can be used to
create estimates of repair costs, as well as provide other information.

At this time, PBS is in the process of gathering and reviewing information on
software systems available within the real estate industry. It issued a request for
information in November 2004 for information on technology services and
support for a building condition assessment program that will provide ready



                                          10
access to real-time information on the condition of individual buildings that have
undergone building condition assessments along with the ability to quantify the
impact of repair and alteration dollars spent. According to PBS National Office,
this is exploratory in nature to examine the systems available in the market and
not a complete re-evaluation of the processes and systems in place.

CONCLUSION

Real property asset management has been designated as a high-risk area for the
Federal government so it is imperative that PBS continues to improve its
management. While PBS has made strides in its oversight of the portfolio,
repair and modernization needs have grown to an estimated $6 billion. Some
aspects of addressing the physical condition of the real estate portfolio, such as
actual funding levels and customer capabilities, are not fully in PBS’s control;
however, PBS needs to pursue those aspects that it does control. The lack of a
comprehensive plan that: (1) identifies the total repair and alteration needs and
corresponding funding requirements; (2) establishes the benefits and priorities of
all competing projects; and (3) proposes a strategy and the funding needed to
repair or modernize its most seriously deteriorated buildings, is viewed as an
impediment to improving the oversight of repair and modernization needs. PBS
has been active in developing and implementing a comprehensive plan or
investment outlook to address its capital reinvestment requirements, but needs to
take additional steps before this can be achieved.

PBS’s process to identify, plan, and fund repairs and modernizations is
dependent upon a series of assessments to identify building conditions and
scope projects. The National Office has issued guidance to assist regions.
However, the process has not been fully adopted and as such, may not be
generating all the information needed to consistently track the status of each
identified repair and alteration work item, develop accurate cost estimates for
work items, and assist in establishing priorities for identified repairs and
alterations. Even if the current guidance was fully followed, the process does not
include a way to evaluate the cost benefit of delaying repairs nor does it facilitate
system life cycle planning. This information would be valuable in establishing
benefits and priorities among projects and assist in evaluating funding strategies.

PBS needs to continue to refine and develop strategies for addressing the repair
and modernization needs of its buildings. First, it must address the issue of
consistent, accurate and complete data. The current approach to collecting and
maintaining data is cumbersome and the guidance is not consistently followed
which impairs the reliability of the data. Additionally, as mentioned above, it does
not provide some beneficial enhancements. As PBS reviews software
applications available in the industry, it can compare the current methodology
and systems it is utilizing to the alternatives. The optimal tool supports a process
that can facilitate and improve the day-to-day operations at the Regional level
without excessive burden and also provides the information needed by Regional



                                         11
and National Office personnel to manage the overall program while being cost
effective.

Regardless of whether PBS retains the current systems or selects a new one, it
must then advocate its processes and ensure the system data is maintained. As
part of advocating the processes and system, guidance should be clear and
explain the relationship to other asset management strategies, such as the Asset
Business Plan. To ensure system data is maintained properly, PBS may wish to
consider incorporating data maintenance as a requirement for the performance
measurement system similar to the requirement to update data in the Asset
Business Plans or possibly develop a performance measure related to the
management of these assets that is dependent on the data in the systems.

Finally, PBS should continue to develop the criteria needed to determine which
buildings should be targeted with the agency’s limited funding. PBS also needs to
develop a method to prioritize the projects being proposed by the regions.
Currently, Regional personnel develop projects and interact with customer
agencies to move projects forward in accordance with their own Regional
strategies and priorities, the National Office needs to be able to assess and
prioritize these projects in light of the requirements of the entire building
inventory. This prioritization should work in partnership with the strategies PBS
has in place to address the overall repair and modernization requirements within
the agency’s building inventory.

RECOMMENDATIONS

We recommend that the Commissioner of the Public Buildings Service continue
to work toward a comprehensive plan to address the repair and modernization
requirements of the GSA building inventory. To maintain this effort, PBS should:

1. Ensure the data for its building reinvestment requirements is obtained and
   maintained in accordance with the prescribed methodology. To do this, PBS
   should consider:

          a. Whether it is cost effective to streamline or enhance the current
             process through software applications.
          b. Incorporating data maintenance as a performance measure.

2. Advocate its processes and systems to assess building condition, to identify
   building deficiencies, and to schedule work items; and in conjunction, review
   its guidance to ensure it is clear and identifies how other asset management
   initiatives relate to this process.

3. Continue to develop and complete an agency-wide strategy to systematically
   define the current and projected building inventory that is needed to meet
   customer agency long-term needs so that planning and funding for



                                       12
   prospectus-level repair and alteration projects can be targeted to those
   assets.

4. Develop a methodology to prioritize the prospectus-level projects being
   proposed by Regional Management and compiled into the 5-year nationwide
   reinvestment forecast.

MANAGEMENT CONTROLS

As discussed in the Objectives, Scope and Methodology section of this report,
our audit objective was to determine if GSA has an effective strategy to repair
and modernize Federally owned buildings by: 1) identifying total repair and
alteration requirements in their owned buildings and estimating their cost; 2)
evaluating the economic and operational implications of the requirements in each
building; and; 3) setting forth a strategy to repair and modernize these buildings.
The examination of management controls was limited to those necessary to
achieve the audit objectives.

MANAGEMENT COMMENTS

In his September 16, 2005 response to the draft audit report (see Appendix C),
the Acting Commissioner of the Public Buildings Service agreed with the
contents, conclusions, and results of the report and provided specific comments.




                                        13
              Audit of PBS’s Major Repair and Alterations Program
                       Report Number A040176/P/R/R05010

        Appendix A: PBS Repair and Alterations Planning Methodology

In moving toward implementing a comprehensive plan, the Public Buildings
Service (PBS) has developed a methodology to assess the capital reinvestment
requirements for its building inventory and to develop a multi-year plan to repair
and modernize its buildings. The methodology is based on using a multi-level
process to assess reinvestment needs using Physical Condition Surveys (PCS)
and Web-based Building Evaluation Reports (Web-BER) and then using the
Inventory Reporting Information System (IRIS) to inventory and schedule the
repair and alteration requirements for the buildings. The basic steps in the
process are discussed below.


The PCS

The process to identify building deficiencies and develop the multi-year plan of
prospectus repair and alterations project begins with the PCS. The PCS is a
walk-through self-assessment to ascertain the relative condition of building and
infrastructure systems. According to PBS, the PCS is a strategic planning tool
that provides a regular consistent assessment of the physical condition of the
basic building structure, as well as the infrastructure of GSA’s building inventory.
It documents the long-term needs of a building and represents the inventory of
items in need of repair or replacement. The survey itself consists of a
questionnaire focusing on the building and its condition. It can be performed by
building management personnel and starting in FY 2004, is required once every
two years on all active buildings8 in GSA’s inventory. The results are input into
the PCS system, which provides a total dollar value of deficiencies at the macro
level that can be used to forecast the building’s reinvestment needs and
determine asset strategy. The PCS system itself does not generate work items;
so Regional personnel need to evaluate the results to identify work items for the
building. PBS National Office can use the overall results to assess the
infrastructure of GSA’s building inventory and presents this data in its budget
submission.

The web-BER

The web-BER is a web-based tool for performing detailed building and
infrastructure assessments that allows deficient conditions to be entered in the
form of deficiencies as well as a means to correct those conditions to be
developed. According to the GSA WEB Building Evaluation Instructions, a web-

8
  “Active” buildings, for the purposes of this goal, include newly constructed buildings and those
undergoing renovations. Buildings reported as excess and accepted by the Office of Property
Disposal can be excluded.


                                               A-1
BER should be performed based on the results from the PCS to identify
deficiencies as well as the means for correcting the deficiencies. Data for the
system is developed through a detailed engineering evaluation of a building
known as a Building Engineering Report (BER) that is performed by professional
architects and engineers under contract. The BER provides recommended
corrective actions along with estimates for the replacement costs of building
systems and components that are posted in the web-BER. Once completed,
Regional personnel need to review the corrective actions identified and
determine which ones warrant investment given the overall plan for the particular
asset and these will be tracked as work items. The performance of a web-BER is
at the discretion of Regional Portfolio Management; however, beginning with the
FY 2005 planning cycle, the National Office requires a web-BER for all projects
submitted for funding during the yearly budget planning.

Scheduling through IRIS

The purpose of IRIS is to document and schedule the accomplishment of
identified building needs, track execution of construction projects, and plan the
repair and alterations program. Within IRIS, work items9 are tracked and
managed as they are identified, grouped into projects, and funded. For the
prospectus level repair and alterations program, this plan should reflect seven
fiscal years.

When Regional personnel identify work items within a building through a PCS,
web-BER, or another study, the work item is entered into IRIS. Using PCS
results, Regional personnel must interpret the results to identify work items and
then develop the necessary estimates. Using web-BER results, Regional
personnel must review the recommended work items, determine the actual work
items that will be performed, and in some cases develop a new estimate if a
repair will be made rather than a replacement. In either case, the National Office
has instructed the Regions to only input the repair and alteration investments that
an asset team realistically expects to accomplish for a particular building, but no
more than that. These work items need to be reviewed and updated by Regional
personnel on a regular basis to reflect current estimates, how they will be
bundled into projects, and when it makes sense to execute them (design plan
year and construction plan year).

In addition, Regional personnel need to ensure that accurate project estimated
start dates and actual dates are entered into IRIS so that execution of the overall
Repair and Alterations Program can be tracked. Once work has been
completed, the personnel must ensure that IRIS is updated to reflect that the
applicable deficiencies have been addressed.




9
    A work item is a repair or construction activity that needs to be carried out in a building.


                                                   A-2
                  Audit of PBS’s Major Repair and Alterations Program
                           Report Number A040176/P/R/R05010

                     Appendix B: Facility Condition Index Comparison


          Building                                               FCI Per   FCI Per
Region    Number                 Building Name                  Web-BER     PCS      Difference
  1      VT0024ZZ Burlington Federal Building                     0.25      0.08        0.17
  1      ME0068ZZ Edmund S. Muskie Federal Building               0.45      0.53       (0.08)
  1      MA0137ZZ IRS Center                                      0.35      0.31        0.04
  2      NY0282ZZ Jacob K. Javits Federal Building                0.30      0.42       (0.12)
  2      NY0323ZZ Silvio V. Mollo Federal Building                0.31      0.29        0.02
  3      VA0062ZZ Courthouse Annex                                0.38      0.20        0.18
  3      WV0054FP Huntington Federal Building                     0.77      0.35        0.42
  4      KY0085AA IRS Service Center                              0.24      0.12        0.12
  4      AL0039AB John A. Campbell U.S. Courthouse                0.92      0.57        0.35
  4      SC0068AA Strom Thurmond Federal Building                 0.59      0.27        0.32
  5      MN0036ZZ Federal Building                                0.17      0.80       (0.63)
  5      OH0189CN John Weld Peck                                  0.21      0.15        0.06
  6      MO0106ZZ Robert A. Young Federal Building                0.28      0.12        0.16
  8      MT0017ZZ Federal Building - Post Office - Courthouse     0.79      0.57        0.22
  9      AZ0058ZZ Federal Building                                0.22      0.14        0.08
  9      CA0093ZZ Federal Office Building                         1.24      0.89        0.35
  11     DC1415NA 019 Office Building                             0.61      0.12        0.49
  11     DC0501BC Auditors Main                                   0.33      0.15        0.18
  11     DC0014ZZ Courthouse                                      0.65      0.48        0.17
  11     DC0083ZZ Federal Office Building 10A                     0.59      0.36        0.23
  11     MD0035AG Federal Office Building 3                       0.80      0.45        0.35
  11     DC0021ZZ General Services Administration Building        0.90      0.53        0.37
  11     DC0026ZZ Lafayette                                       0.74      0.68        0.06
  11     DC0094ZZ National Courts                                 0.53      0.33        0.20
  11     DC0114ZZ Tax Court                                       0.34      0.50       (0.16)
  11     DC0082ZZ Theodore Roosevelt                              0.37      0.52       (0.15)



   This table presents a comparison of the Facility Condition Index (FCI) calculated
   by the Web-BER and Physical Condition Survey (PCS) systems for the 26
   buildings listed above. The data was downloaded from the systems in March
   2005.




                                                B-1
Audit of PBS’s Major Repair and Alterations Program
         Report Number A040176/P/R/R05010

       Appendix C: Management’s Response




                       C-1
Audit of PBS’s Major Repair and Alterations Program
         Report Number A040176/P/R/R05010

       Appendix C: Management’s Response




                       C-2
               Audit of PBS’s Major Repair and Alterations Program
                        Report Number A040176/P/R/R05010

                              Appendix D: Report Distribution



Commissioner, Public Buildings Service (P) .................................................... 3


Regional Administrator (5A) …………………………………………………….….1


Regional Administrator (9A) …………………………………………………….….1


Regional Administrator (WA) …………………………………………………….…1


Office of the Chief Financial Officer (B) ........................................................... 2


Assistant Inspector General for Auditing (JA, JAO and JAS)........................... 3


Assistant Inspector General for Investigations (JI)........................................... 1


Branch Chief, Audit Follow-up and Evaluation Branch (BECA) ....................... 1




                                                   D-1
